No.

IN THE

Jgniprcme (ttaurt of Hje

JsHates

Jorge Armando Herrera Salguero,

Petitioner,
v.

People of the State of California,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE PURSUANT TO RULE 33
Pursuant to Rule 33.2, I hereby certify that this petition is less than 40
pages, and therefore complies with the page limit set out in Rule 33. This
brief was prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Interim Federal Public Defender
DATED: July 16, 2020

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

1

